  DEPARTMENT OF HOMELAND SECURITY
  letl
         Office of Inspector General


      Information Technology Management 

         Needs to Be Strengthened at the 

     Transportation Security Administration 





OIG-08-07                         October 2007
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                  October 26, 2007

                                     Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses how well the Transportation Security Administration (TSA) manages
information technology (IT) to accomplish its mission of overseeing the security of the
nation’s transportation systems. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 



Executive Summary ...............................................................................................................................1 


Background ............................................................................................................................................2 


Results of Audit .....................................................................................................................................4 


   Fragmented Technology Environment Lacks Integration and Standards..........................................4 


   Decentralized Agency Structure Impedes Efficient IT Management ..............................................15 


   Numerous Challenges Exist in External Stakeholder Coordination................................................24 


   Recommendations............................................................................................................................31 


Management Comments and OIG Evaluation .....................................................................................32 


Appendices
Appendix A:          Scope and Methodology............................................................................................... 36 

Appendix B:          Management Comments to the Draft Report ............................................................... 38 

Appendix C:          Major Contributors to This Report............................................................................... 42

Appendix D:          Report Distribution....................................................................................................... 43 


Abbreviations
CAPPS II              Computer Assisted Passenger Prescreening System
CIO                   Chief Information Officer
CTO                   Chief Technology Officer
DHS                   Department of Homeland Security
EDS                   Explosive Detection System
ETD                   Explosives Trace Detection
FAMS                  Federal Air Marshal Service
GAO                   Government Accountability Office
Hi-SOC                High-Speed Operational Connectivity
IT                    Information Technology
ITD                   Information Technology Division
OIA                   Office of Intelligence and Analysis
OIG                   Office of Inspector General
OPT                   Operational Process and Technology
OST                   Office of Security Technology
TSA                   Transportation Security Administration
TSNM                  Transportation Sector Network Management
TTAC                  Transportation Threat Assessment and Credentialing
Table of Contents/Abbreviations 



Figures
Figure 1   TSA Initial Milestones ..................................................................................................2

Figure 2   Operational Process and Technology Responsibilities ..................................................5 

Figure 3   EDS Machines Used by TSA to Screen Checked Baggage ..........................................7 

Figure 4   TSA Offices with IT Activities .....................................................................................8

Figure 5   Process to Compile TSA Watch List ..........................................................................14 

Figure 6   FY 07 IT and Security Technology Spending Across TSA Offices ...........................18 

Figure 7   IT Division Funding to FTE History ..........................................................................23 

Figure 8   TSA’s Challenges in Stakeholder Coordination .........................................................25 

OIG 

Department of Homeland Security
Office of Inspector General
Executive Summary
                       Information technology plays a critical role in supporting the
                       Transportation Security Administration’s (TSA) security mission. Since
                       2001, TSA began to develop an initial IT infrastructure as well as
                       implementing an array of explosive detection and X-ray systems to meet
                       mission needs in key areas such as aviation security.

                       As part of our ongoing responsibility to assess the efficiency,
                       effectiveness, and economy of departmental programs and operations,
                       we reviewed TSA’s IT management programs and activities. The
                       objectives of this review were to evaluate TSA’s management of current
                       technologies and infrastructure to ensure effective transportation security
                       mission operations and information management and exchange across
                       internal and external stakeholders.

                       TSA does not manage and apply IT effectively to support
                       accomplishment of its mission objectives. Due to early pressures to meet
                       tight congressional time frames and the public’s demand for increased
                       transportation security, TSA’s technology environment evolved quickly
                       and in a highly decentralized manner. The resulting IT infrastructure has
                       limited system integration and data sharing and has perpetuated
                       inefficient manual work processes. Additionally, due to a lack of
                       authority and standard policies to govern technology implementation
                       across TSA offices, the agency’s chief information officer (CIO) faces
                       significant challenges in conducting agency-wide IT planning and
                       investment management to counter the fragmented environment. The
                       declining number of staff within the central IT Division also impedes the
                       CIO’s ability to manage the IT infrastructure and support new
                       technology requirements. Further, TSA faces disparate aviation
                       stakeholder challenges, such as technical limitations and privacy
                       assurance requirements, which largely remain outside of the agency’s
                       control.




  Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                  Page 1
Background 

                       The Aviation and Transportation Security Act (Public Law 107-71, November
                       19, 2001) established TSA as part of the Department of Transportation in
                       response to the events of September 11, 2001. With the passage of this act,
                       TSA gained responsibility for ensuring compliance with passenger and
                       checked baggage screening regulations and deployment of security officers at
                       approximately 450 airports. This act also called for TSA to enhance specific
                       screening operations, such as the use of explosive detection screening for
                       checked baggage, by December 31, 2002. Within 12 months, TSA
                       implemented a technology and telecommunications infrastructure to meet
                       these requirements. By the end of 2002, the agency had deployed a security
                       operations workforce and assumed 100% of all airport screening
                       responsibilities. In March 2003, TSA was transferred to form part of the
                       newly established Department of Homeland Security. Figure 1 displays the
                       timeline for these events

                         2001                                 2002                                        2003
                                                                               November
                              November




                                                                                                                        December
                                               February




                                                                                              March
                                                                                              M arch
                                                                        100% Passenger                            100% Baggage
                             ATSA                                                                                   Screening
                                                                           Screening
                            Became                                                                               (Explosive Detection)
                                                                          Deadline Met
                              Law                                                                                   Deadline Met
                                                                                          TSA Transfers
                                                                                            To DHS
                                         TSA Assumes FAA                       IT
                                          Aviation Security              Infrastructure
                                          Responsibilities                Established


                       Figure 1: TSA Initial Milestones

                       TSA’s current mission is to “protect the Nation’s transportation systems to
                       ensure freedom of movement for people and commerce,” with a primary focus
                       on the aviation sector. To accomplish this mission, the agency deploys
                       thousands of federal air marshals, screens cargo, conducts intelligence
                       gathering and analysis, invests in ongoing security technology research and
                       development, manages numerous programs to improve threat identification
                       and analysis capabilities, and disseminates information about its services to
                       stakeholders and U.S. citizens. Leveraging new technology and partnerships
                       with stakeholders are key factors of TSA’s transportation security approach.

                       Today, TSA is comprised of 11 business units with nearly 50,000 employees
                       and a budget of approximately $6.3 billion for fiscal year 2007. Foremost


  Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                              Page 2

                         among the business units, the Office of Security Operations manages the
                         agency’s primary airport field operations, as well as key security programs
                         and frontline employees, including over 120 federal security directors and
                         40,000 transportation security officers. The airports that TSA serves vary
                         considerably by size and number of passengers. The largest and busiest
                         airports are designated as “Category X,” with smaller airports falling under
                         categories 1 through 4 (from largest to smallest). In addition, the agency has a
                         24-hour security operations center and 21 field offices within the Federal Air
                         Marshal Service (FAMS) to help support airport security operations. TSA
                         also incurred significant challenges to build supporting IT from the ground up
                         to meet the mandated deadlines for deploying trained security officers at
                         airports and performing screening functions.

                         Over the past several years, a number of audit reports have discussed key
                         challenges relating to the management of mission critical IT programs such as
                         Secure Flight and the Transportation Worker Identification Credential
                         Program, along with difficulties in IT contract management:

                         •	   In February 2004, the Government Accountability Office (GAO) reported
                              on schedule delays and poor TSA planning to develop the Computer-
                              Assisted Passenger Prescreening System (CAPPS II), eventually leading
                              to cancellation of the program in August 2004.1

                         •	   In February 2006, a GAO study of the Secure Flight program revealed that
                              TSA had not followed a disciplined life cycle management approach in
                              developing the new program, with potential adverse affects for its
                              implementation.2 As a result, the Office of Management and Budget
                              placed the Secure Flight program on its watch list of high-risk IT
                              programs.

                         •	   In July 2005, regarding checked baggage screening technologies, GAO
                              reported findings that several airports were still using stand-alone baggage
                              screening machines and explosive trace detection machines instead of
                              more efficient in-line systems.3 GAO determined that improved planning
                              would be needed for optimal deployment of the more efficient screening
                              equipment to airports.



1
  GAO, Aviation Security: Computer-Assisted Passenger Prescreening System Faces Significant Implementation 

Challenges, GAO-04-385, February 2004. 

2
  GAO, Aviation Security: Significant Management Challenges May Adversely Affect Implementation of the 

Transportation Security Administration’s Secure Flight Program, GAO-06-374T, February 2006. 

3
  GAO Aviation Security, Better Planning Needed to Optimize Deployment of Checked Baggage Screening Systems, 

GAO-05-896T, July 2005. 


    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                    Page 3
                         Additionally, in February 2006 we reported on TSA’s management of its
                         contract with Unisys.4 Under this contract, Unisys was required to set up an
                         IT infrastructure for TSA and provide IT management services. We reported
                         that the contract had suffered significant cost overruns and delays in
                         implementing key deliverables, such as a high-speed operational connectivity
                         package. We also reported that the overspending and performance issues
                         identified had resulted in part from inadequate staff to oversee and manage the
                         contract, and we recommended rebidding the contract.

Results of Audit
Fragmented Technology Environment Lacks Integration and Standards
                         TSA’s technology environment continues to be fragmented, hindering its
                         ability to carry out its mission effectively. Upon creation, TSA made initial
                         progress to establish a complete IT infrastructure, as well as a range of
                         screening technologies for security operations at airports. However, due to
                         time constraints, TSA’s technical environment evolved in a decentralized
                         manner, leading to stovepiped systems with limited information sharing and
                         technical standards. Additionally, gaps in IT solutions delivery and network
                         connectivity continue to trigger manual and inefficient processes throughout
                         the agency.

Initial Progress Made to Establish IT Infrastructure

                         TSA took major steps in a short time period to establish the infrastructure and
                         security technology solutions needed to support its newly assigned mission
                         operations. The TSA Operational Process and Technology (OPT) office is
                         responsible for the majority of the agency’s IT and security technology
                         functions. Specifically, as shown in Figure 2, this office administers the
                         TSA’s IT infrastructure and security technology programs, as well as business
                         management, risk management, and strategic innovation functions.

                         The IT Division is responsible for managing the agency’s IT infrastructure,
                         including networks, desktops, standard applications, printers, cell phones, and
                         peripheral hardware. To carry out these responsibilities, the IT Division
                         oversees a range of sub-offices, including IT Security, IT Systems Innovation,
                         IT Solutions Delivery, and the Business Management Office.

                         The Office of Security Technology (OST) is responsible for the agency’s
                         programs for transportation screening equipment and explosive detection

4
 DHS OIG, Transportation Security Administration’s Information Technology Managed Services Contract, OIG-06-23,
February 2006.

    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                    Page 4
                         solutions. The primary functions of the OST are testing, deployment, and
                         lifecycle maintenance of security technology solutions. Key sub-offices
                         within the OST include Operations and Technical Planning, Technology
                         Deployment and Optimization, Systems Analysis and Requirements
                         Engineering, and Operational Integration.

                                                     Operational Process
                                                     & Technology (OPT)/
                                                          CIO / CTO



                            IT Division (ITD)                      Office of Security Technology
                            •IT Security                           (OST)
                            •IT Systems Innovation                 •Operations and Technical Planning
                            •IT Solutions Delivery                 •Technology Deployment &
                            •Business Management Office             Optimization
                                                                   •Systems Analysis/Requirements Engineering
                                                                   •Operational Integration

                         Figure 2: Operational Process and Technology Responsibilities

                         Beginning in 2001, the chief task of the IT Division was to establish a full-
                         scale infrastructure within 12 months, including hardware, video, land mobile
                         radios, phone communications, e-mail, and BlackBerry devices. By 2002,
                         TSA had successfully implemented this IT infrastructure to support
                         headquarters operations as well as the federal security directors and staff field
                         locations. More recently, TSA completed a refresh of all desktops and laptops
                         at headquarters, airports, and field offices, installing a uniform desktop image
                         and standard lock-down policy across all sites.

                         TSA also has made strides in replacing dial-up communications with much
                         needed high-speed operational connectivity (Hi-SOC) to most airports’
                         passenger and baggage checkpoints, as well as to federal security directors’
                         offices.5 TSA established a plan to expand Hi-SOC to the largest airport
                         checkpoints; as of May 2007, the agency was 70% complete in implementing
                         this plan for passenger checkpoint areas and 57% complete for baggage
                         screening areas. Once the high-speed connectivity is fully implemented, field
                         locations will experience greater levels of productivity in performing daily
                         online tasks, as well as in remotely transmitting data to TSA headquarters.

                         Improving contract management to help support this infrastructure has been
                         another area of emphasis. Specifically, TSA is converting to a DHS vehicle to
                         obtain IT support services, in efforts to overcome historical challenges with its
                         IT managed services contract with Unisys. Specifically, the DHS Enterprise

5
 As of May 2007, TSA has established basic high-speed connectivity at 86% of the nation’s category X and category 1
airports, and 99% of the nation’s category 2, 3, and 4 airports.

    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                          Page 5
                          Acquisition Gateway for Leading Edge Solutions contract is a standard,
                          department-wide platform for acquiring IT services with improved cost
                          efficiency and oversight. TSA will begin contracting actions in the first
                          quarter of FY 2008 to transition to the new contract vehicle.

                          Meeting the aggressive congressional deadlines for implementing screening
                          solutions was no easy undertaking. The Aviation and Transportation Security
                          Act held TSA responsible for screening all passengers within 1 year from the
                          date of enactment of the legislation, November 19, 2002, and required
                          explosive detection screening for all checked baggage by December 31,
                          2002.6 The deadline for explosive detection screening was later extended by
                          one year.7

                          To meet this requirement, TSA’s OST instituted its Passenger Screening
                          Program and Electronic Baggage Screening Program to rapidly procure and
                          deploy security equipment to approximately 450 airports nationwide. For
                          electronic baggage screening, TSA’s OST deployed two types of screening
                          equipment: (1) explosive detection systems (EDS), which use X-rays to
                          automatically recognize the characteristic signatures of threat explosives, and
                          (2) explosives trace detection (ETD) equipment, which uses chemical analysis
                          to detect traces of vapors and residue from explosive materials. By 2007,
                          TSA’s OST successfully deployed over 13,000 pieces of security equipment,
                          including enhanced walk-through metal detectors, threat image X-rays,
                          certified explosive detection systems, and explosive trace detectors.

                          Since these initial deployments, the TSA OST has partnered with DHS’
                          Science and Technology Directorate for ongoing research and development to
                          continually enhance its security technology solutions. The deployment of
                          aviation security solutions accounts for the majority of spending within TSA’s
                          OPT office.8 TSA also conducts ongoing pilots as part of its process for
                          testing new security equipment. For example, TSA pilots in 2007 involved
                          new electronic baggage systems, passenger screening equipment, and airport
                          access control systems.

                          TSA has structured a Security Technology Integration Program within the
                          OST to network its security equipment. The program will leverage Hi-SOC
                          connectivity to establish a centralized enterprise data management system to
                          facilitate the exchange of information between transportation security
                          equipment located at the nation’s airports and the people who use, procure,
                          and service the equipment. The resulting unified network will support remote

6
  Aviation and Transportation Security Act, Public Law No. 107-71, Sec. 110, November 19, 2001.
7
  Homeland Security Act of 2002, Public Law No. 107-296, Sec. 425, November 25, 2002.
8
  OST spending represents $1.1 billion, of which $15.1M is categorized as IT for fiscal year 2007.

    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                        Page 6
                        access and monitoring, reduce operations and maintenance costs, and improve
                        efficiency by facilitating system upgrades and patch management. The
                        program will begin in 2008 and require up to four years to complete. Figure 3
                        gives an example of EDS machines in a stand-alone configuration. After this
                        program is complete, security equipment will be connected to a central
                        network to automate data collection and provide remote monitoring
                        capabilities.




                        [Source: GAO-06-869]


                        Figure 3: EDS Machines Used by TSA to Screen Checked Baggage

Stovepiped IT Environment Evolved

                        Because of the fast-paced and ad hoc manner in which TSA was established,
                        the supporting IT infrastructure evolved in a decentralized, inefficient manner.
                        Specifically, the infrastructure is characterized by independent IT
                        deployments, limited systems integration, inadequate IT solutions to meet user
                        needs, and a range of locally developed applications to fill the gaps. These
                        technical inefficiencies have resulted in a lack of information sharing across
                        the agency’s systems, further impeding effective data management practices
                        and workflow. TSA does not employ effective systems development and
                        lifecycle management practices throughout the agency. Such practices would
                        ensure that future IT systems are instituted in a more integrated and
                        disciplined manner to support cross-agency sharing.




   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                    Page 7

                     Independent and Non-Integrated Technology Deployments

                     According to Office of Management and Budget Memorandum No. 4,
                     Circular A-130, agencies must ensure that IT planning and development
                     activities do not duplicate existing capabilities within their organizations.
                     However, TSA business offices have undertaken independent, parallel IT
                     initiatives, resulting in specialized technology platforms, networks, and
                     systems and, generally, a stovepiped IT environment across the agency. The
                     IT Division is responsible for the basic TSA infrastructure. However, due in
                     part to the IT Division’s limited staff and budget to service TSA-wide needs, a
                     number of component offices also have established their own IT
                     infrastructures and support operations, as illustrated below in Figure 4.

                            Business
                                                              Transportation
                        Transform ation &                        Security                                     Chief Counsel
                             Culture
                                                              Administration

                            Office of                                                                           Special
                           Inspection                                                                          Counselor

                                                                                     Strategic
                                               Intelligence
                                                                                 Communications
                                                & Analysis
                                                                                  & Public Affairs


                                              Transportation
                                                                                    Legislative
                                            Threat Assessment
                                                                                      Affairs
                                              & Credentialing




                                                Transportation                Law Enforcement                  Operational Process
                    Security Operations        Sector Network                Federal Air Marshal               & Technology (OPT)
                                              Management (TSNM)                Service (FAMS)                       (CIO / CTO)




                                    Human Capital                 Finance &
                                                                                                     Acquisition
                                      (Training)                Administration



                     Figure 4: TSA Offices with IT Activities

                     For instance, the FAMS and the Office of Intelligence and Analysis are the
                     foremost offices that have separate IT infrastructures, established in part due
                     to their specialized mission operations and security requirements. First, the
                     FAMS operates an independent network, and provides its own desktops,
                     software licenses, applications, and IT support services. The FAMS began
                     building this infrastructure after the terrorist attacks of September 11, 2001,
                     highlighted the need for increased air transportation security. A state of the
                     art IT infrastructure with sophisticated scheduling and communications
                     capabilities was needed to accommodate the exponential growth in the
                     number of FAMS agents and offices and their operations.


Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                      Page 8
                     Second, the Office of Intelligence and Analysis also manages a separate
                     intelligence network and telephone system. Like the FAMS, this office
                     conducts sensitive security operations, requiring specialized communications
                     and IT systems.

                     To a lesser extent, other TSA offices also have developed systems and
                     implemented applications independently to support their specialized missions.
                     For example, the Human Capital Office led an effort to upgrade its online
                     training system in September 2006. Once deployed, this customized system
                     slowed computer operations across multiple field locations and adversely
                     affected network performance. According to IT personnel, this incident was
                     due to inadequate system testing and configuration management. Further, IT
                     Division management stated that ongoing problems with congestion in server
                     and network operations are due in part to the non-integrated systems and a
                     proliferation of spreadsheets and databases.

                     As a result of such IT inefficiencies, TSA has incurred increasing operations
                     and maintenance costs. For example, the IT Division’s refresh of
                     headquarters and field office computers in 2006 did not include the FAMS
                     offices. Rather, the FAMS’ own IT organization completed a separate IT
                     infrastructure refresh program at the same time under an independent contract.
                     Similar instances occur throughout TSA business offices as separate contracts
                     are established to manage major IT development efforts.

                     In the Transportation Threat Assessment and Credentialing (TTAC) office,
                     where a number of contracts to develop vetting systems are managed, officials
                     acknowledge that this approach is not cost-effective and that the systems
                     should be supported through one consolidated contract for the organization.
                     These parallel efforts result in an inefficient use of resources and limit the
                     agency’s opportunities to realize cost savings through enterprise-wide
                     planning and consolidation.

                     Given the independent and non-integrated manner in which technology has
                     been deployed, there is a lack of standardization among the IT platforms,
                     hardware, and software used throughout the agency. For example, a number
                     of offices throughout the agency have acquired phone systems, mobile
                     devices, and peripheral hardware from different vendors. Additionally,
                     several offices maintain separate, multiple contracts with providers of
                     software, hardware, and application development services, as well as general
                     services such as wireless IT.

                     In this fragmented technology environment, the agency has also faced
                     challenges in obtaining enterprise-level software licenses. According to
                     senior IT staff, if two offices require the same software or application licenses,

Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 9
                     there is no way to bring these requirements together to serve the whole
                     agency. Further, because most offices do not maintain a specific budget for
                     licenses, there are project managers with $5 to $10 million projects who lack
                     the necessary project management software. As a result, TSA remains unable
                     to provide its staff with the necessary tools to complete their job efficiently, or
                     realize economies of scale through consolidation of hardware or software.

                     In this environment, the IT Division also is limited in its ability to manage
                     effectively a complete inventory of all of the systems developed and deployed
                     agency-wide. Multiple inventories are maintained, each with slight variations
                     of system names that are based on different definitions of applications,
                     systems, and projects. Further, TSA faces difficulties in establishing a true
                     system of record for its field equipment due to multiple databases and locally
                     managed spreadsheets. As a result, TSA is unable to capture or maintain
                     accurate records in systems such as its security equipment inventories, which
                     range from 15,000 to 17,000 pieces of equipment. Such wide variations lead
                     to an inability to document and maintain a complete picture of the existing
                     technical environment and supporting data.

                     The IT Division hopes to minimize such redundant systems development
                     activities through its new Systems Innovation Group, established to support
                     central, CIO-led development of systems to meet common requirements
                     across TSA. This effort supports the IT Division’s goal of becoming a
                     “preferred provider of IT services and support.” However, the IT Division’s
                     efforts to rein in duplicative systems have not yet been fully extended to all
                     TSA field locations. As of June 2007, the IT Division had deployed limited
                     technology solutions to the field to support basic management and
                     administrative functions.

                     In the absence of central IT support, field locations typically have developed
                     their own IT systems to meet day-to-day operational needs, such as recording
                     time and attendance, tracking lost and found items, and maintaining
                     inventories of uniforms and seized goods. However, to the extent that such
                     systems are networked, they could potentially pose risks to infrastructure
                     operations. They also are an ineffective use of resources. To address these
                     issues, the IT Division has begun documenting business requirements of the
                     federal security directors responsible for overseeing airport security
                     operations. The IT Division also plans to develop an updated “Federal
                     Security Directors’ Toolkit” of business applications commonly used in the
                     field.




Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 10
                         Limited Information Sharing and Standards

                         Because TSA systems often are not integrated, there is a corresponding lack
                         of information sharing and standardization across the agency. A number of
                         TSA applications contain duplicate information with varying degrees of
                         completeness and accuracy. For example, although the agency’s primary
                         human resources management system contains basic employee data, the
                         system is not interoperable with other personnel systems that need the same
                         information. According to a senior IT official, there are more than a thousand
                         databases at TSA, with no inventory of data across systems. Without a master
                         record of available data, as well as standard data formats, TSA develops
                         inconsistent information products and reports with duplicate and conflicting
                         information. Ultimately, TSA is unable to look across all of its systems to
                         “connect the dots” and manage information in an integrated manner.

                         The agency also maintains multiple data centers without a unified strategy,
                         vision, or oversight. For example, TTAC runs two data centers at Annapolis
                         Junction, Maryland, and Colorado Springs, Colorado, while the IT Division
                         hosts its own data center in St. Louis, Missouri. Though TSA IT personnel
                         stated the Colorado Springs Data Center serves specific operational and
                         security needs, other TSA officials were not able to provide clear reasons for
                         the various data centers. Although DHS is trying to consolidate its data
                         centers department-wide, TSA has not issued guidance on merging data
                         centers within the component agency.

                         With limited enterprise-wide IT systems and information management
                         practices, TSA lacks a rigorous and disciplined approach to program
                         management. IT initiatives typically are managed independently without
                         enforceable standards or guidance. Although the IT Division has created
                         some tools and standards, such as a system development life cycle
                         management methodology, these are only partially utilized across TSA
                         offices. According to TSA officials, some project managers do not
                         understand how to use the methodology; the guidance needs to be tailored or
                         simplified to promote its use. As GAO reported in February 2006, TSA’s
                         failure to follow a disciplined life cycle management approach hindered
                         success of the Secure Flight program.9

                         The IT Division has placed priority on developing a TSA Information Sharing
                         Environment to address these information management issues. This initiative
                         is intended to increase data integration and standardization by moving to a

9
 GAO Aviation Security: Significant Management Challenges May Adversely Affect Implementation of the
Transportation Security Administration’s Secure Flight Program, GAO-06-374T, February 2006.

    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                    Page 11
                        more flexible IT architecture. With this program, the IT Division plans to
                        integrate independent databases so that information across systems can be
                        accessed via a central location. Although a TSA Information Sharing
                        Environment Roadmap was developed and funded in FY 2006, the allocation
                        for this initiative has been reduced by over $16 million in the FY 2007 budget
                        plan and next steps have been put on hold. Without leadership support for this
                        effort, TSA remains challenged in following industry- and DHS-
                        recommended practices for data sharing.

Inefficient Manual Processes Remain

                        Federal guidelines require that agencies improve the effectiveness of their
                        mission operations. However, the gaps in systems development and
                        connectivity discussed above have led to a number of labor-intensive and
                        inefficient processes. The agency spends a significant amount of time on
                        manually collecting data to measure performance, manage security equipment
                        configurations, and carry out administrative functions. Key processes such as
                        TSA watch list implementation also are not well automated.

                        Data Collection and Configuration Management for Security Equipment

                        Because TSA screening equipment is not networked, daily processes to collect
                        data on security operations create several challenges for TSA field personnel.
                        Currently, airport staff must collect and compile performance management
                        data from all transportation screening equipment and transfer it to the CTO’s
                        website in a manner that is often unstructured and manually intensive. Since
                        each type of equipment has its own unique method for collecting, storing, and
                        downloading data, the manual nature of this part of the process permits gaps
                        and inaccuracy in the raw data. Field officials must visit each explosive
                        screening device and walk-through metal detector every hour to take a reading
                        and log the data. This information is rolled up into daily reports for each
                        airport, then e-mailed or faxed to headquarters for input to the national
                        performance management system.

                        As a whole, this process for collecting data from the equipment is
                        cumbersome, time consuming, and labor intensive. Officials at one field
                        location estimated that it takes 10 minutes of every hour to gather the data
                        from each walk-through metal detector. Officials at another airport estimated
                        that their transportation security officers annually dedicate 2,920 staff hours to
                        performance data gathering. Because the manual process is subject to errors,
                        analysts spend approximately 2 hours each day reconciling the performance
                        data before submitting it to headquarters.




   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                   Page 12

                     TSA’s existing configuration management processes for transportation
                     security equipment are completely manual. For example, when changes (such
                     as user names) are required in equipment configuration, TSA staff must
                     physically visit each security component to make the updates. A field official
                     must open each machine one at a time and enter the user name via a small
                     keyboard. Additionally, given airports’ changing security needs, field staff
                     often move the security equipment from checkpoint to checkpoint, especially
                     when the units are highly portable. As such, TSA field personnel must
                     maintain an accurate record of the location of each piece of equipment and its
                     authorized users. Supervisory staff complete the required paperwork on the
                     changes in equipment location and send it to the appropriate offices at TSA
                     headquarters.

                     TSA plans to address these inefficient processes and reduce the time and
                     effort required to update security equipment. As previously discussed, the
                     agency has begun deploying high-speed connectivity at all airports via its Hi-
                     SOC program. TSA will build on this program by undertaking a Security
                     Technology Integration Program to network the transportation security
                     equipment, linking it to TSA headquarters. Once completed, this will enable
                     TSA to streamline its performance measurement process by allowing the
                     automatic collection of operational data from equipment. The programs will
                     also support remote monitoring, diagnosis, and troubleshooting of checked
                     baggage and passenger screening equipment. Overall, the OST believes that
                     these programs will enhance security, improve resource management, and
                     decrease operational costs.

                     Administrative Functions Need Improvement

                     As a result of deficiencies in TSA’s current online training system, TSA field
                     personnel use various methods, such as paper logs or spreadsheets, to track
                     employee training hours. According to a number of personnel, the current
                     online training system does not provide an accurate tool for tracking
                     coursework and ensuring that employees complete the hours required for their
                     training and development. As a result, TSA employees do not consistently
                     receive full credit for hours taken and courses completed. To avoid such
                     errors, training coordinators currently enter course hours manually, leading to
                     potential mistakes and adverse effects on employees’ performance ratings.

                     Additionally, headquarters is unable to automatically update training software
                     in the field due to the lack of network connectivity. As a result, the training
                     coordinator must use compact disks to install software updates to each
                     training computer, sometimes at multiple off-site locations each month.
                     According to field personnel, it may take an hour and a half to update each


Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 13
                     computer, creating a significant burden given that there may be as many as
                     100 computers at a single location.

                     TSA Watch List Manual Procedures Create Security Concerns

                     Manual procedures for maintaining and disseminating the TSA watch list to
                     stakeholders create security concerns and additional work for headquarters
                     and field personnel. As shown in Figure 5, the TSA watch list process begins
                     at the Terrorist Screening Center, which compiles information from across all
                     federal stakeholder agencies and then provides a subset of this data to TSA.
                     After receiving this information, TSA’s Office of Intelligence and Analysis
                     merges it with the agency’s no-fly list. TSA standardizes the data, puts it in
                     Microsoft Excel format, and then posts it to a TSA web board on a daily basis.
                     Airlines have the option of using the spreadsheet manually or downloading it
                     to their respective systems. While this process was intended to be a temporary
                     solution, it has been in place since 2002 and its replacement remains
                     uncertain. Proposed replacements (i.e., Secure Flight and its predecessor,
                     CAPPS II) have experienced long delays due to program management
                     challenges.

                      Terrorist Screening Center     TSA Office of Intelligence & Analysis          External Stakeholders


                          Compiles watch list                                                            Airlines apply
                         from federal agencies                                     TSA posts
                                                                                                          spreadsheet
                                                    Merges limited watch list   MS Excel-format
                                                                                    Excel-format
                                                                                                          manually or
                                                      with TSA No-fly
                                                                No-fly list     watch list to TSA
                                                                                                       download it to their
                                                                                web board daily
                                                                                                       respective systems

                           Provides limited
                          subset of watch list
                             data to TSA                 Data in list is
                                                         standardized
                                                                                                       Watch list checked
                                                                                                        against airline
                                                                                                        passenger list

                                                      List is converted into
                                                           Excel format




                     Figure 5: Process to Compile TSA Watch List


                     Until the current watch list process is replaced, TSA and its stakeholders face
                     additional work to disseminate the list, as well as control access and ensure
                     security once it is distributed. Specifically, because the list is downloaded in
                     the form of a spreadsheet, the watch list can easily be e-mailed or printed by
                     unauthorized parties.

                     Additional security concerns arise due to the fact that every airline
                     implements the watch list differently; downloading the list is a manual process


Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                   Page 14
                          with no clear guidance on proper use. It also is unclear how stakeholders such
                          as airlines should implement the list. For example, there are no standard
                          procedures or guidelines for checking an individual’s name against those on
                          the list. One airline may check multiple spellings of a name, while another
                          airline may simply check one spelling. Additionally, at smaller airlines,
                          employees may manually check names against a spreadsheet, which can lead
                          to human error.

Decentralized Agency Structure Impedes Efficient IT Management
                          TSA has yet to institute management controls effectively to ensure sufficient
                          levels of IT oversight and guidance to its disparate offices. Although a
                          cohesive agency-wide IT investment review process is in the early stages of
                          development, TSA’s IT budgeting and program management functions remain
                          scattered across a number of offices without adequate CIO oversight.
                          Likewise, IT strategic planning remains uncoordinated, resulting in inadequate
                          alignment of the various agencies’ technology plans with agency- and
                          department-wide strategies. Further, a number of offices maintain their own
                          IT staff because the IT Division has inadequate resources to support the users
                          and technology requirements of TSA’s specialized business operations.

Limited Agency-Wide IT Oversight and Authority

                          The Clinger-Cohen Act (Public Law 104-106, February 10, 1996) requires
                          that federal CIOs ensure that IT is acquired and managed in accordance with
                          agency missions and policies. However, there is a lack of agency-wide
                          authority and control of IT resources within TSA. Although TSA has taken
                          steps to strengthen its IT governance and acquisition processes, technology
                          investments are managed in a decentralized fashion across the organization.

                          Investment and Program Management Structure

                          TSA has established an acquisition process and supporting governance
                          structure, but has not yet instituted mechanisms for consistent oversight of
                          agency-wide IT resources and initiatives. TSA’s IT investment review
                          process is defined by DHS guidance,10 the TSA acquisition program
                          management process,11 and CIO IT review guidance.12 The agency’s
                          acquisition structure is comprised of various review boards that oversee and
                          approve investments at key decision points throughout their lifecycles. One
                          such board, the Business Management Council, is co-chaired by the TSA

10
   DHS Management Directive 1400, Investment Review Process, March 15, 2007.
11
   TSA Management Directive 300.8, Acquisition Program Planning, Review and Reporting.
12
   TSA CIO IT Acquisition Review Guidance V1.1, April 2007.

     Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                     Page 15
                           Chief Procurement Officer and the TSA CIO. The Investment Review Board
                           is chaired by the TSA Deputy Administrator and includes all TSA assistant
                           administrators and other senior officials across the agency. These boards
                           share responsibility for reviewing and approving all TSA acquisitions.

                           TSA has a well-defined process for categorizing and reviewing investments.
                           According to the TSA Acquisition Guide, investments are placed into one of
                           four categories based on criteria such as cost, mission, risk, and resource
                           allocations. Investments exceeding $50 million are categorized as level 1 and
                           2 projects and require a greater level of documentation to prepare for multiple
                           TSA- and DHS-level reviews. These investments are subject to review by the
                           Business Management Council, the Investment Review Board, and several
                           DHS governance boards, chaired at executive levels up to the Deputy
                           Secretary. Lower-level projects (levels 3 and 4) estimated at less than $50
                           million require only TSA Business Management Council review.

                           Although TSA has begun documenting and communicating guidance on its
                           investment review process, questions remain regarding the agency’s ability to
                           enforce the guidance consistently across TSA programs. According to a TSA
                           official, program managers are not consistently aware of the existing review
                           boards and have limited understanding of the decision making process.
                           Further, Office of Acquisition personnel may not always be aware of all new
                           programs and therefore cannot always guide them by providing information
                           on the investment review process. Program managers’ lack of knowledge
                           about the governance structure and policies also may contribute to limited
                           compliance with acquisition management procedures. For example, managers
                           with programs under development or still in the conceptual stage do not
                           always understand when and how to enter the formal review process.

                           The TSA CIO recognizes the need to closely partner with the Office of
                           Acquisition to ensure involvement in IT-related investment decisions.
                           Accordingly, the IT Division began updating IT acquisition review guidance
                           in April 2007, however these updates have not yet been implemented. The
                           new guidance will better integrate IT review functions with the existing
                           acquisitions process. The guidance also reflects key changes in response to
                           DHS’ directive on IT integration and management, issued in March 2007.13

                           Additionally, the DHS directive elevates the TSA CIO’s role to providing
                           formal review and reporting on all TSA IT acquisitions over $2.5 million.
                           Given this change, acquisitions above this threshold must first go through the
                           TSA IT review process before going to the DHS CIO and DHS Enterprise
                           Architecture Board for approval. The updated TSA CIO guidance pursuant to

13
     DHS Management Directive 0007.1, Information Technology Integration and Management, March 15, 2007.

      Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                      Page 16
                          the March 2007 directive is intended to improve coordination among business
                          functions and give the CIO more visibility and authority regarding IT
                          acquisitions.

                          Specifically, per the new guidance, the TSA CIO plans to provide a monthly
                          report to the DHS CIO on any IT purchases under $2.5 million reviewed and
                          approved. The IT Division’s Business Management Office has worked to
                          communicate the new guidance to the business units since its development in
                          April 2007. Business Management Office officials have noted an increase in
                          the number of IT acquisitions they review since this directive was
                          implemented. By reviewing and approving each IT acquisition, the TSA CIO
                          expects to improve IT alignment with the agency’s mission and target
                          architecture.

                          Decentralized Budget Management

                          Federal laws make an agency’s CIO responsible for IT capital planning and
                          investment management functions.14 However, TSA’s decentralized IT
                          budget hinders visibility of IT spending across the organization. As the
                          agency evolved in a decentralized manner over the past five years, the CIO
                          has had no official or substantive role in budgeting or planning for IT
                          programs initiated in other offices apart from the IT Division. As a result, the
                          CIO frequently is not consulted on significant technology decisions and
                          investments.

                          There are a number of offices TSA-wide that are comparable to the IT
                          Division in terms of IT budget control and authority. For example, the FAMS
                          office independently manages its IT budget, as well as its own network,
                          projects, and infrastructure. Similarly, due to its unique mission, the TTAC
                          office maintains its own IT budget and resources. Specifically, given the
                          office’s threat assessment and credentialing function, a number of high-profile
                          programs, such as Secure Flight, receive direct funding through appropriations
                          or user-generated fees. Because of its mandated funding, TTAC does not
                          have to rely on external support from the IT Division to implement its
                          programs. However, such mandated funding also hinders enterprise-wide,
                          long-term IT planning, and reduces opportunities to integrate and leverage
                          existing IT initiatives.

                          According to DHS Management Directive 0007.1, starting in 2009, each DHS
                          component CIO will be responsible for preparing an IT budget that includes
                          all IT activities within the component organization. However, the IT Division

14
  Paperwork Reduction Act of 1995, Public Law 104-13, May 22, 1995, Sec. 3506(h); Clinger-Cohen Act of 1996,
Public Law 104-106, Feb 10, 1996, Sec. 5122-5123.

     Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                     Page 17
                     accounts for only 26% of the total technology spending across the agency. As
                     shown in Figure 6, TSA-wide spending in FY 07 for IT and security
                     technology reached over $1.5 billion. While the TSA IT Division office is
                     responsible for $408 million, the OST has purview over $1.1 billion,
                     comprising the majority of the agency’s IT-related spending. This $1.1 billion
                     covers transportation security technology equipment, programs, operations,
                     research and development. Of the $1.1 billion, $15.1 million is allocated
                     specifically for IT through its Security Technology Integration Program.
                     Additionally, in FY 07, the TTAC IT budget was $44.2 million, the FAMS IT
                     budget was $22.4 million, and the Office of Intelligence and Analysis IT
                     budget was $3.7 million—all apart from IT Division authority and control.

                                                  $1200
                                                           $1,107,400,000*

                                                  $1000


                                                   $800
                       Amount Spent in Millions




                                                   $600

                                                                      $408,000,000
                                                   $400

                                                   $200
                                                                                    $44,159,270 $22,400,000
                                                             $15,100,000                                    $7,100,000**
                                                      $0
                                                                OST          ITD        TTAC          FAMS                 OIA
                     Source: TSA data collected April-May, 2007                              *$Total OST aviation security FY07 funds, of
                     TSA offices represented in this chart was based on data received             which $15,100,000 is categorized as IT
                                                                                                          ** Combined FY06 and FY07
                     Figure 6: FY 07 IT and Security Technology Spending Across TSA Offices

                     Since the agency’s inception, TSA offices have struggled to reach consensus
                     on a shared definition of IT to help in consistently classifying and tracking IT
                     spending across TSA component offices. TSA historically has relied on a
                     vague definition of IT, based on Office of Management and Budget Circular
                     A-11 and the Clinger-Cohen Act. Currently, airport security technology
                     equipment, such as EDS and ETD machines, is not considered IT. In this
                     structure, the OST manages security technology equipment and programs
                     separate from the IT Division’s traditional IT infrastructure systems.
                     However, a number of TSA officials expressed confusion and offered
                     conflicting opinions on what constitutes IT in the absence of clear TSA
                     definitions and guidance. In March 2007, however, DHS provided an updated

Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                                    Page 18
                        definition of IT in its DHS Management Directive 0007.1. According to TSA
                        officials, this directive may help to address the previous ambiguity, but its
                        impact remains to be seen.

                        Delineation of what constitutes IT also is a major issue as it relates to the
                        acquisition process. With the IT Division's help, the Office of Acquisition
                        screens new programs to determine whether they are IT initiatives.
                        Investments deemed “non-IT” are not subject to the same level of
                        documentation or technical reviews as IT programs. Further, the CIO has
                        limited involvement in “non-IT” programs, which hinders the possibility of
                        leveraging or integrating existing solutions.

                        Coordination with Business Offices Is Limited

                        Several TSA officials said that there is a general need for more effective
                        coordination between the IT Division and business offices. Because many
                        TSA IT programs are not managed or funded within the CIO’s purview, the
                        CIO’s ability to monitor program progress or coordinate with business units is
                        sporadic and often “too little, too late.” According to several IT officials,
                        when business units develop systems independently of the IT Division, this
                        presents challenges for the CIO. Deploying new systems on the network
                        without prior coordination creates anxiety as to whether the systems will
                        operate in the existing environment, meet security standards, or incur
                        additional cost to incorporate redundant IT elements.

                        According to multiple TSA senior executives, there is no official, including
                        the CIO, with a central purview over all IT across the agency. Rather,
                        coordination between the IT Division and business managers often is done on
                        an ad hoc basis or through established working relationships. Some IT
                        Division staff said that their awareness of major IT projects often is derived
                        from the IT security process with projects only becoming visible as they
                        undergo certification and accreditation. One IT staff member said that the IT
                        Division gets more information on TSA’s major IT projects, such as Secure
                        Flight, from the news media than from within the agency. In fact, IT
                        management recently designated a contractor to monitor the internet to
                        maintain awareness of new IT initiatives across TSA.

Immature IT Strategies, Policies, and Guidance

                        As with investment management, TSA has not instituted a focused approach
                        to formulating overarching IT strategic goals, policies, or guidance to achieve
                        mission outcomes. IT strategic planning is conducted in a decentralized
                        manner across the organization without cohesive direction or supporting
                        policies to ensure alignment. Although the agency has recently begun

   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                   Page 19
                            instituting IT management tools such as an enterprise architecture to increase
                            integration and standards for the IT environment, the tools are not yet fully
                            developed or implemented. Further, IT support services are decentralized
                            across a number of different offices, because the IT Division’s limited
                            resources have prevented it from serving as a central source of IT support.

                            TSA Needs Effective IT Planning and Management

                            The Government Performance and Results Act of 1993 (Public Law 103-62,
                            August 3, 1993) holds federal agencies responsible for strategic planning to
                            ensure efficient and effective operations and use of resources to achieve
                            mission results. Further, the Clinger-Cohen Act requires agencies to develop
                            and maintain an integrated, enterprise-wide architecture for the agency.
                            Developing this enterprise architecture would define and set the standards for
                            executing the agency strategy and implementing the systems and technologies
                            in an integrated manner to accomplish mission goals.

                            However, TSA has not institutionalized an effective IT strategic planning
                            process to support an agency-wide vision or agency-wide goals and
                            objectives. Rather, competing plans have been developed in different parts of
                            the organization. Specifically, both the IT Division and the OST, its
                            counterpart, have developed strategic plans. Both plans have been
                            implemented and are in use to guide IT within the respective offices.
                            However, there is no clear correlation between the two plans. For example,
                            the FY 2005 to 2006 CTO strategic plan is focused on achieving TSA’s
                            mission by providing security technology solutions.15 In contrast, the IT
                            Division’s FY 2006 to 2008 strategic plan outlines an internally focused
                            vision that includes collaboration among TSA’s business units and the IT
                            Division becoming TSA’s preferred IT services provider.16

                            Within the overarching OPT office that brings the IT Division and CTO
                            operations together, planning officials hope to update and develop a single
                            strategic plan for all TSA offices that strengthens IT alignment with the
                            agency-wide strategy. However, this OPT planning effort is ongoing, with a
                            target completion date of December 2007.

                            Similarly, business planning also is performed at the office level across the
                            agency. These plans are at various stages of completion or execution. For
                            example, the FAMS and Transportation Sector Network Management
                            (TSNM) develop and maintain their own strategic plans due to the size and


15
     TSA Chief Technology Officer Strategic Plan, FY 2005–2006.
16
     TSA Information Technology Division Strategy, FY 2006–2008.

       Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                       Page 20
                     organizational structure of these offices. Specifically, TSNM has 10
                     transportation modes within the office that must consolidate planning efforts.

                     Because of the decentralized IT planning, there is no long-term, unified vision
                     for aligning IT investments and programs within the agency. According to
                     one official, the agency has only a near-term, tactical view by which to
                     operate. For instance, although TSA has begun planning the “checkpoint of
                     the future,” which is a set of long-term goals for security checkpoints, TSA
                     has not refined this vision to outline how security screening operations will be
                     supported by technology. There has been much speculation among field
                     directors regarding whether this vision will involve cutting edge technologies
                     or redesigned processes and operations. Without a clear vision, it will be
                     difficult to get participation and buy-in from across the agency for an
                     enhanced security screening approach.

                     Lacking a unified IT strategy, there also is no way to align TSA’s disparate IT
                     initiatives and resources with the strategies of the overarching department and
                     agency. IT alignment is important to better enable each TSA office and
                     business unit to carry out its role in support of DHS’ homeland security
                     mission. Further, IT alignment with the TSA vision will help ensure that each
                     office and business unit is progressing toward accomplishing the agency’s
                     goals and objectives. However, senior IT officials stated that the methods for
                     achieving such strategic alignment are limited while the organization is still
                     evolving. In the past year, TSA has established a Strategic Planning Office
                     within the Finance and Administration office, which is taking a “grassroots”
                     approach to leveraging the lower-level office and business unit plans to build
                     one high-level strategic plan.

                     Additionally, TSA has not yet instituted an enterprise architecture as a
                     framework for transitioning from its stovepiped and redundant systems to an
                     integrated IT environment. Since FY 2005, TSA has made strides in
                     developing its enterprise architecture to help analyze business and IT needs;
                     however, the framework has not yet been fully developed or employed.

                     The IT Division’s Business Management Office, responsible for the enterprise
                     architecture effort, is in the initial stages of defining the existing “as-is”
                     environment. As part of this effort, senior TSA officials are focused on
                     mapping the business processes of federal security directors in the field and
                     outlining credentialing operations within TTAC. Subsequently, the agency
                     will define the future “to-be” state and develop a transition plan. TSA’s
                     recent award of a new contract for enterprise architecture support and
                     development has demonstrated increased focus on this effort. Once it is
                     completed, the IT Division plans to use the architecture within the IT review


Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 21
                     process as a tool for aligning services to needs and identifying technical risks.

                     IT Support Services Are Decentralized

                     Although the IT Division’s vision is to be TSA’s “preferred IT provider,”
                     business offices throughout TSA currently provide their own IT support in a
                     variety of ways. These independent support services have evolved in part
                     because the IT Division has not had the staff or issued the guidance needed to
                     support TSA-wide IT operations effectively.

                     Since its inception, the IT Division has faced the daunting challenge of
                     delivering IT support despite a chronic lack of staff. In general, staffing
                     trends in the IT Division have remained level over the years. Specifically, the
                     IT Division has about 132 full-time government staff managing IT for
                     approximately 50,000 total TSA employees. However, these staffing levels
                     have not been adequate for the IT Division to meet the mission and
                     administrative needs of other TSA offices, such as IT procurement guidance,
                     tailored technology solutions, and dedicated technical staff support. For
                     example, TSA’s Office of Redress approached the IT Division for help in
                     developing a system that would allow airline passengers to submit online
                     requests for their names to be cleared from TSA’s No Fly List, but the IT
                     Division could not provide timely assistance due to its resource limitations.
                     As a result, the Office of Redress hired its own contractor, who built a system
                     that contained significant security flaws when launched.

                     Additionally, because basic infrastructure support has been the IT Division’s
                     priority to date, the IT Division has not been able to focus on developing and
                     supporting customized applications to benefit specialized business needs. For
                     example, soon after TSA began operations, the Human Capital Office wanted
                     to acquire a system to track human resources data. Because the IT Division
                     was not able to divert staff to support this project, Human Capital procured its
                     own system and hired its own technical support personnel to manage it.

                     To complicate matters, despite the staffing shortfalls, IT Division workloads
                     have increased over time commensurate with agency growth. The IT Division
                     has relied on contractor support and managed services to provide the level of
                     IT service and support necessary for an agency of TSA’s size and scope. At
                     the same time, the number of full-time government employees in the IT
                     Division has been slipping over time due to attrition. Program officials said
                     that staffing levels really should be increasing to meet the increased
                     workloads and targeted service goals and to allow adequate oversight of
                     contractors. In the opinion of senior IT management, the number of
                     employees needed to accomplish IT Division responsibilities is 250 to 300—
                     nearly double the current government workforce. As illustrated at Figure 7,

Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 22
                     the IT Division’s budget has steadily increased, which could accommodate an
                     increase in IT support staff and services.

                                                          Funding (in Millions)
                      $500
                      $500

                                                                                         $434.0
                      $400
                      $400
                                                                                                       $403.0


                      $300
                      $300                                                   $312.0
                                               $269.5        $262.7
                      $200
                      $200

                                     $108.2
                      $100
                      $100
                              F Y02
                              FY02            FY03           FY04           FY05       FY06            FY07

                                                                      Funding



                                                             FTE History
                      175

                                              146
                      150                                     141               142
                                                                                                         138
                                                              139
                                                                                        119
                      125
                                                                                126
                                                                                        118
                                                                                                         111
                      100
                                    90
                               91              94

                       75
                             FY02             FY03          FY04            FY05       FY06            FY07

                                         FTE Authorized                               FTE On-Board


                                                                                      Provided by TSA March 28, 2007


                     Figure 7: IT Division Funding to FTE History


                     However, the IT Division has not received the FTE authorizations needed,
                     commensurate with the budget increases. According to senior technology
                     officials, TSA leadership must first give permission for program dollars to be
                     used for hiring full-time employees. However, there is a lack of confidence
                     within the agency that the IT Division is capable of going beyond its historical
                     role of basic infrastructure support to deliver a fuller range of services.
                     Officials attributed this lack of confidence, in part, to the poor performance of
                     the IT managed services contract.

                     Lacking adequate support from the IT Division, a number of TSA offices
                     employ their own specialized IT support units. These offices justify the need
                     for their own support services by citing factors such as unique mission or
                     business operations or IT Division limitations. For example, the FAMS office
                     has established an IT staff of 13 to manage its infrastructure and network and
                     oversee contractors. Similarly, the TTAC office has an IT staff of 10 to
                     provide technical expertise for contract oversight and support the office’s
                     operations. In addition, the TSNM office has its own staff of IT specialists

Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                          Page 23
                       who provide support for the 10 different modes of transportation under
                       TSNM, as well as priority support services for executive management.
                       Although these separate IT support staffs are considered necessary to support
                       the agency’s mission, they also lead to duplicative efforts and expenses,
                       inefficiencies, and a lack of standard processes and practices.

                       IT Division management hopes to rein in these disparate IT support resources
                       by widening the range of services that they offer and increasing the reliance of
                       the business units on the IT Division over the coming year. For example, the
                       IT Division plans to expand its services to include more development and
                       customization of applications to meet business unit needs. As part of this
                       effort, the IT Division also will leverage the newly increased network
                       connectivity to improve the effectiveness of new and continuing IT initiatives.

                       To further its relationships with the business units, the IT Division has
                       assigned an account manager to work with each TSA business office and
                       serve as a liaison for meeting IT needs. IT Division management anticipates
                       that the benefits of this arrangement will include increased awareness of the
                       customer’s business and technical needs, particularly in terms of developing
                       and gathering requirements. Additionally, this approach is intended to build
                       the reputation of the IT Division, and to increase its visibility throughout the
                       organization.

                       As of October 2006, the IT Division had begun implementing plans and
                       applied $3 million in FY 2007 funds to support the account manager
                       approach. Initial reception of this approach has been positive, and business
                       units are communicating through the account managers to bring more issues
                       to light. The IT Division continues to define the account manager’s role to
                       further enhance inter-office working relationships and ensure effective IT
                       service delivery.

Numerous Challenges Exist in External Stakeholder Coordination
                       Coordinating with transportation systems stakeholders is a major challenge for
                       TSA. A number of federal laws, including the Homeland Security Act of 2002
                       (Public Law 107-296, Nov. 25, 2002) and the Aviation and Transportation
                       Security Act, govern how the agency must partner with stakeholders to carry
                       out its transportation security operations. Taken together, these laws require
                       that the agency carefully mete out its limited financial and administrative
                       resources to address the needs of each stakeholder on an individual basis.
                       TSA’s challenges in meeting these responsibilities, as illustrated in Figure 8,
                       include:



  Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                  Page 24

                        •	   Balancing the competing interests of numerous external organizations
                             whose missions and operations are inherently different from one another
                             strains TSA resources and budgets.
                        •	   Applying customized solutions to accommodate varying requirements due
                             to differences in stakeholder facilities, capabilities, and technology.
                        •	   Communicating with stakeholders effectively on the guidelines for
                             obtaining funding and meeting transportation security technology
                             standards.
                        •	   Meeting federal requirements and public concerns about data privacy and
                             security to satisfy stakeholder needs.



                                            Airlines
                                            Airport         TSA
                                                             TSA 

                                            Owners       Guidelin es
                                                          Guidelines

                                                          Guidelines
                                                                   Funding
                                                                     Funding
                                    Airports
                                    Airports	
                                     Airlines	
                                     Airlines                     Decisions

                                               TSA
                                               TSA

                                                TSA
                                             Challenges
                                             Challenges

                                             Challenges
                                   Technical
                                   Technology
                                                                  Civil
                                          Financial            Libert
                                                               Liber  ties
                                                                       ies
                                                                liberties
                                             Financial




                        Figure 8: TSA’s Challenges in Stakeholder Coordination

                        Addressing these challenges may improve TSA’s ability to move from a
                        reactive to a proactive approach in applying resources to meet priority
                        requirements. Although a number of the challenges may be beyond TSA’s
                        control in some respects, the agency nonetheless can increase its ability to
                        respond to unique stakeholder requirements by ensuring that clear
                        transportation security technology guidelines and funding criteria are
                        communicated and consistently applied. Additionally, identifying and
                        devising strategies in advance to mitigate the risks of compromise or
                        unauthorized disclosure of personally identifiable information can also
                        alleviate concerns about the privacy and security of TSA data.

Meeting Stakeholders’ Diverging Interests

                        Collaborating and interacting with multiple stakeholders to design and deploy
                        screening technologies to over 450 airport facilities is no easy task for TSA.
                        The challenge arises from the fact that the stakeholders, including airport

   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration 

                                                     

                                                 Page 25 

                     owners and operators as well as commercial airlines and their customers, have
                     differing interests, responsibilities, and priorities.

                     For example, TSA must consider a number of factors in designing and
                     implementing screening solutions to meet airports’ interests and operational
                     needs. Most airports are owned by state or local governments and operated by
                     government-funded airport authorities and must focus on meeting community
                     and taxpayer needs. As such, they are concerned with controlling costs,
                     managing revenue flows, and serving the traveling customer. At the same
                     time, however, airports must place a premium on ensuring safety and
                     preventing transportation security incidents.

                     TSA often is caught in a dilemma in working to ensure aviation security
                     concurrent with meeting the airports’ divergent operational and customer
                     service needs. For example, the complex screening equipment that TSA
                     deploys to help ensure aviation security often is extremely heavy and bulky,
                     and consumes a considerable amount of space. Airports with space or
                     building engineering constraints sometimes must place the equipment in lobby
                     areas, increasing congestion and passenger processing times. This incursion
                     also poses public safety issues, since crowded spaces are difficult to monitor
                     and patrol.

                     In addition, airports may lose income when security checkpoint or baggage
                     screening equipment takes up valuable retail space that could be used for more
                     profitable operations, such as food courts or parking lots. Further, one TSA
                     official said that while deploying backup screening equipment on site meets
                     the airports’ concern about guarding against service disruptions, TSA finds it
                     difficult to justify the redundant expense for the equipment because it is rarely
                     used.

                     Conversely, TSA is challenged in its efforts to balance aviation security with
                     the profit motive of commercial airlines. While airlines, too, are concerned
                     with security, as private companies they are primarily focused on business and
                     performance goals, reputation, and customer service, which affect revenue.
                     For example, one airline representative said that frequent TSA baggage
                     screening equipment failures during morning rush hour peak times result in
                     flight delays and tens of thousands of dollars in additional operating costs. An
                     airline official told us about another instance where TSA equipment
                     breakdowns led to about 50 bags not making it onto a flight, inconveniencing
                     passengers and causing increased operating expenses for the airline to track
                     and ship the delayed luggage.

                     In addition, several airlines provide TSA with booking information in advance
                     to assist in scheduling the appropriate number of screening personnel for duty

Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 26
                        and help alleviate long passenger screening lines. However, TSA staff
                        shortages and inability to readily adjust the shifts of federal screeners to meet
                        workload demands may result in backed up lines at peak periods or substantial
                        overtime costs. Such inconveniences result in customer complaints and
                        negative perceptions of both the airlines and TSA.

Accommodating Varying Stakeholder Capabilities

                        Another challenge that TSA faces is designing security solutions and systems
                        to accommodate disparities in stakeholder capabilities. Factors such as
                        facility size, capacity, budget, current technology, and staffing affect TSA’s
                        ability to execute security operations effectively. For example, some airports
                        have the capacity to integrate sophisticated “in-line” EDS systems with
                        luggage conveyance systems to automate baggage screening; others are
                        constrained by building engineering, geographic location, or airport
                        construction or modernization plans that limit the type and amount of
                        equipment that they can deploy. Such constraints may lead to temporary
                        solutions or sub-optimal baggage screening arrangements where machines are
                        placed in lobbies, temporary structures, or other less convenient areas.
                        Further, financial resource limitations also may affect screening system
                        designs. For example, while some airports can afford state-of-the-art
                        screening systems, others struggle to meet minimum standards and maintain
                        outdated equipment.

                        Variations in airlines’ technical capabilities also hinder TSA mission
                        execution. Technology used in critical initiatives, such as the No Fly List,
                        which aids airlines in prescreening passengers for potential security risks,
                        must accommodate the airlines’ technical limitations. Specifically, since there
                        is no common system across the airlines for downloading and using No Fly
                        List data, TSA must use “lowest common denominator” technology to
                        distribute the information. To accommodate small airlines that must view the
                        data manually, TSA uses the simplest formats, i.e. Microsoft Excel, to
                        disseminate the lists, although other airlines would prefer more sophisticated
                        formats. The lack of consistent systems across airlines also means that small
                        adjustments in data presentation, such as changes in spreadsheet column
                        widths or capitalization of letters, can cause system crashes and considerable
                        additional expense.

Communicating Security Regulations and Guidelines

                        TSA faces challenges in clearly and effectively communicating to
                        stakeholders regarding guidelines for implementing security technology and
                        obtaining funding. TSA is responsible for providing aviation security


   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                   Page 27

                     guidance, such as the requirement to screen all passengers and checked
                     baggage for air travel. Typically, TSA’s approach has been to coordinate with
                     each airport on a case-by-case basis to work through complex cost-sharing
                     models and project scopes. TSA employs various tools such as prioritized site
                     lists, letters of intent, and letters of prejudice, which preserve eligibility for
                     self-funding airports to receive federal reimbursements in the future, to
                     manage the airports’ competing needs for funding and resources. However,
                     addressing the complexities and varying conditions at the individual airports
                     takes time and fosters reactive and uneven response to airport needs. As such,
                     airport and airline officials have complained about a lack of clarity and
                     consistency in policy documentation and execution.

                     Airports are particularly concerned about a lack of clear guidance from TSA
                     about the implementation of in-line baggage screening systems. The airports
                     and TSA have met previous deadlines for 100% passenger and baggage
                     screening in accordance with the Aviation and Transportation Security Act.

                     While the 100% requirement is clear and remains in effect, the added
                     requirement to increase automation and efficiency by replacing ETD devices
                     and stand-alone EDS machines with in-line systems where possible is less
                     clear. Such systems are costly, yet airport officials have said they see a lack
                     of TSA policies on funding or implementation of these in-line baggage
                     screening systems at airports. A TSA official confirmed that TSA has not
                     issued such policies, but the agency has developed a framework for different
                     levels of automation, as well as suggested solutions for 250 airports, based on
                     their size and other characteristics. The framework also presents a prioritized
                     list of the top 25 airports for which TSA funding assistance is planned, based
                     on a quantitative analysis using weighted criteria.

                     However, a number of airport officials and TSA field personnel do not have
                     sufficient awareness or understanding of these and other equipment and
                     funding guidelines to make the guidelines useful. With regard to
                     implementing and deploying security technology, airport officials said that
                     there do not appear to be definitive or consistent processes coming from
                     headquarters. These officials also said that the funding process is “opaque,”
                     characterized by a lack of criteria and uniform procedures for securing TSA
                     financial assistance. Officials and TSA field personnel also were unaware of
                     their airport’s funding prioritization status. Even at airports that had received
                     or expected to receive funding, there were ongoing negotiations and
                     disagreements regarding what TSA would or would not fund.

                     Without systematic and objective guidance and procedures, airport officials
                     often must engage in time-consuming negotiations with TSA headquarters


Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 28
                        regarding funding and technology standards, not knowing whether their
                        concerns will be equitably addressed. Airports encounter difficulties in long-
                        term planning and financing of security technology improvements because
                        officials do not know whether or how much TSA may eventually contribute to
                        assist their efforts. Further, security technology improvements that airports
                        undertake must be scaled back in some cases due to these financing
                        uncertainties and airports’ limited budgets. As a result, new screening
                        systems and other security equipment that may be in place for years fall short
                        of meeting TSA’s performance and efficiency expectations. Since less
                        efficient equipment requires more people to support operations, the
                        installation of less efficient long-term systems also results in continued high
                        staffing needs and expenses for TSA.

Addressing Data Privacy Concerns

                        Establishing the appropriate balance between executing mission
                        responsibilities and respecting the privacy and legal rights of the public is a
                        challenge for TSA as it develops new security systems and implements pilot
                        programs. For example, in 2002, TSA identified a new screening technology
                        called “backscatter” as a solution to improve detection of concealed threat
                        items such as liquids and plastics. However, the system’s X-ray capability has
                        raised privacy concerns regarding protection of the images generated by the
                        equipment. As a result, the agency delayed the launch of a pilot program and
                        eventually applied privacy filters to reduce body image output.

                        The Secure Flight program also has faced numerous challenges in responding
                        to concerns about its ability to safeguard personally identifiable information.
                        The program is intended to replace the No Fly List by creating a consistent
                        platform for consolidating watch list data and prescreening passengers.
                        However, concerns have been raised regarding the ability of U.S. passengers
                        to seek redress from TSA if they are selected for additional screening or
                        denied boarding privileges due to incorrect name matches identified by Secure
                        Flight or the interim No Fly List procedures. These concerns were heightened
                        in February 2007 when TSA launched a website through which passengers
                        could submit online redress requests. The initial website lacked proper
                        encryption for data submitted, as well as other information assurance features,
                        raising questions regarding the security and validity of the site.

                        A recent loss of TSA computer equipment has led to further public scrutiny of
                        the agency’s ability to appropriately safeguard data that includes personal
                        information. Specifically, on May 4, 2007, a TSA hard drive was discovered
                        missing. The hard drive contained personal, payroll, and financial
                        information on an estimated 100,000 current and former TSA employees.

   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                   Page 29
                     Subsequently, some of the affected employees filed a lawsuit against the
                     agency, charging negligence on TSA’s part. Although TSA has no evidence
                     thus far that the data has been misused, the agency determined that all affected
                     employees would be provided with free credit monitoring for up to one year in
                     order to prevent fraud and identity theft.




Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 30
Recommendations
                       We recommend that the Assistant Administrator for TSA strengthen agency
                       IT management by:

                       1. 	 Empowering the CIO with agency-wide IT budget and investment review
                            authority to ensure that IT initiatives and decisions support
                            accomplishment of TSA mission objectives.

                       2. 	 Developing a consolidated strategic planning approach to ensure that IT
                            plans across the agency are well-aligned and linked to the DHS strategic
                            plan, providing a clear vision of how information and technology will be
                            managed to support TSA and DHS mission objectives.

                       3. 	 Completing and implementing an enterprise architecture to establish
                            technical standards and guidelines for systems acquisitions and investment
                            decisions.

                       4. 	 Establishing and communicating guidelines and procedures for acquiring,
                            developing, and managing IT solutions in a consistent, integrated, and
                            efficient manner.

                       5. 	 Applying adequate staff resources to strengthen the IT Division in
                            addressing IT needs and providing support to TSA operations agency-
                            wide.




  Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                  Page 31

Management Comments and OIG Evaluation

                       We obtained written comments on a draft of this report from the Assistant
                       Secretary, Transportation Security Administration. We have included a copy
                       of the comments in their entirety at Appendix B.

                       The Assistant Secretary concurred with our recommendations and provided
                       comments on specific areas within the report. In these comments, the
                       Assistant Secretary explained the agency's position on whether security
                       technology should be considered as an IT asset. Additionally, the Assistant
                       Secretary gave examples of recent efforts to ensure coordination with
                       stakeholders and clarified its data privacy challenges.

                       We have reviewed the Assistant Secretary’s comments and made changes to
                       the report as appropriate. The following is an evaluation of the issues raised,
                       as outlined in the comments discussion provided by TSA.

                       TSA IT Assets

                       In the comments, the TSA Assistant Secretary stated concern over the
                       inclusion of security technology equipment as part of this review of TSA’s IT
                       infrastructure. TSA stated that per the DHS Management Directive 0007.1
                       definition of IT, security technology equipment should not be included as IT.
                       We are aware of this definition of IT, which was released subsequent to our
                       initial fieldwork, and we acknowledge that the principal function of security
                       technology equipment is for the purpose of screening persons or items. We
                       have modified our report to ensure that security technology equipment is not
                       specifically referred to as IT.

                       In reviewing TSA’s IT management capabilities, we examined TSA’s broad
                       IT infrastructure, including security technology equipment, which plays a
                       critical role in executing TSA’s mission operations. We determined that as
                       screening processes become more automated, it will be difficult for TSA to
                       separate its security technology equipment from the agency’s IT assets. For
                       example, to better automate threat detection and handling functions, an
                       increasing number of TSA’s security-screening operations are enabled by
                       computers using IT features such as the following:
                       • graphical interfaces,
                       • sophisticated algorithms,
                       • networking capabilities,
                       • complex software, and
                       • multi-dimensional image displays.



  Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                  Page 32
                     As IT and screening technologies converge, TSA will need to address, and
                     plan for the possible impact that screening systems have on its IT
                     infrastructure.

                     Additionally, regarding the budget allocation references for TSA’s IT assets,
                     TSA stated that the inclusion of the OST Passenger Screening Program and
                     Electronic Baggage Screening Program funding activity as IT spending was
                     misleading. TSA also said they have captured IT elements of both the
                     Passenger Screening Program and the Electronic Baggage Screening Program
                     into the Security Technology Integration Program budget, which is
                     significantly less compared to the total budgets for these two screening
                     programs. Further, TSA stated that the Office of Management and Budget has
                     concurred with this designation of IT for the Security Technology Integration
                     Program as recently as March 2007. We recognize that TSA has captured the
                     IT elements of each screening program and are managing these IT functions
                     through the Security Technology Integration Program budget. Accordingly,
                     we have modified the report section on budget management and the related IT
                     spending chart to reflect the IT portion of the OST total FY 07 budget.

                     Stakeholder Challenges

                     In response to stakeholder challenges pertaining to collaboration and
                     guidance, the TSA Assistant Secretary stated that stakeholders are actively
                     engaged on matters of airport checked baggage screening systems.
                     Specifically, TSA stated that it has worked with industry stakeholders to
                     develop in draft Planning Guidelines and Design Standards for Checked
                     Baggage Inspection Systems that will be released at the end of calendar year
                     2007. Additionally, in June 2007, TSA issued a guide to airports applying for
                     FY 2009 EDS system funding. We recognize recent TSA efforts to work with
                     stakeholders to carry out its transportation security operations. However, TSA
                     must continue to develop and communicate clear guidelines to ensure
                     consistent level of awareness among stakeholders.

                     Additionally, TSA indicated that safety and privacy data protections of the
                     new imaging technology did not lead to a delay in the field operational test
                     and evaluation. TSA said that the delays were due to concerns with the
                     reaction of the public regarding privacy not the actual data protection or data
                     privacy. We modified the report to clarify the privacy concerns with the
                     "backscatter" technology. However, data privacy remains a challenge that
                     TSA will continue to face as they increase security operations.




Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 33
                     Report Recommendations

                     The Assistant Secretary concurred with our recommendations in their entirety
                     and stated that the recommendations will help TSA improve and implement
                     more effective oversight of IT investments. TSA outlined a number of steps
                     already taken to address several of the report recommendations. We believe
                     that such efforts demonstrate progress toward addressing the various issues we
                     raised in our report. We look forward to learning more about continued
                     progress and improvements in the future.

                     In response to recommendation 1, the Assistant Secretary acknowledged the
                     need for CIO investment review authority over TSA's IT initiatives. The
                     Assistant Secretary stated that TSA is ensuring compliance with DHS
                     Management Directive 0007.1 for CIO accountability of the performance,
                     budgeting, expenditure, and staffing of the agency's IT resources.
                     Specifically, TSA has focused on ensuring IT resources and purchasing
                     services are included in TSA's IT portfolio and support the agency's strategic
                     plan, business requirements, and risk management process.

                     Responding to recommendation 2, the Assistant Secretary said that TSA is
                     currently updating the TSA IT Strategic Plan and it is scheduled for
                     completion by October 2007. The new TSA IT Strategic Plan will be
                     compliant with the TSA Strategic Plan and outline TSA's IT vision, mission,
                     strategy, and goals through 2010.

                     To address recommendation 3, the Assistant Secretary stated that TSA
                     recently awarded a contract to provide support for assessing and improving
                     enterprise architecture management. TSA will map processes, data,
                     applications, and infrastructure to the Federal Enterprise Architecture and
                     TSA Strategic Goals. Eventually, this effort will consolidate common
                     practices and data, enable consistent use of technology, reduce stovepipe
                     solutions and redundancies, and help TSA plan for future needs.

                     In response to recommendation 4, the Assistant Secretary said that the TSA
                     OCIO is transforming its business processes in accordance with DHS
                     Management Directive 0007.1 to ensure effective management and
                     administration of all agency IT resources and assets. Specifically, the TSA
                     investment review process will assess all programs in terms of program
                     alignment, enterprise architecture, IT security, and infrastructure and
                     applications optimization.

                     Finally, to address recommendation 5, the Assistant Secretary stated that the
                     TSA Office of Human Capital completed a position management review of
                     the IT Division in August 2006 to determine appropriate staffing levels. This

Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 34
                     review determined that the TSA IT Division required 164 full-time
                     employees, over 30 more employees than the current staff level.




Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                Page 35
Appendix A
Scope and Methodology


                        As background for this audit, we researched and reviewed federal guidance
                        and laws related to TSA’s responsibility to design, deploy, and maintain
                        technologies to protect the nation’s transportation systems. We reviewed
                        recent GAO and OIG reports related to TSA IT systems, contracts, security,
                        and program management. We searched the internet to obtain testimony,
                        published reports, documents, and news articles regarding TSA operations.
                        Using this information, we designed a data collection approach that consisted
                        of focused interviews and documentation analysis to accomplish our audit
                        objectives. We then developed a series of questions and discussion topics to
                        facilitate our interviews.

                        Collectively, we interviewed over 90 TSA HQ and field management officials
                        and staff to understand TSA’s strategy and processes for managing IT.
                        Officials within the IT Division told us about the current IT management
                        environment and how it is evolving. We interviewed TSA leadership to
                        understand the division of roles and responsibilities related to developing and
                        implementing TSA systems. In particular, we met with OST officials to
                        discuss the development and deployment process for aviation security
                        technology. Additionally, we met with senior TSA officials to discuss how IT
                        investments are budgeted and monitored across the organization. Finally, we
                        met with program managers within several TSA offices to learn about
                        coordination, project management, and standards in implementing major
                        programs and IT systems.

                        Further, we visited five airports where we toured facilities and interviewed
                        TSA employees such as Federal Security Directors, Training Coordinators,
                        Security Managers, and IT Specialists to learn about their functions and
                        operations. We discussed the current IT infrastructure, local IT development
                        practices, and user involvement and communication with headquarters. We
                        gathered input on the system lifecycle development and deployments, as well
                        as performance metrics and maintenance activities.

                        Additionally, we met with TSA stakeholders, including airport owners and
                        airline operators. We discussed their coordination with TSA and the extent to
                        which they are affected by TSA decisions such as project funding, system
                        implementations, and watch list monitoring. Finally, we met with the
                        Transportation Security Lab in Atlantic City, New Jersey, where we discussed
                        the ongoing development and testing of new security technologies before they
                        are transferred for use at TSA field locations. We gathered and analyzed
                        numerous documents that the range of TSA officials provided on IT
                        management topics, such as systems and tools, processes and procedures,
                        investment planning, governance oversight, infrastructure management,
                        program planning, and budget execution.


   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                   Page 36
Appendix A
Scope and Methodology


                        We conducted our review from February 2007 to May 2007 at TSA
                        headquarters in Washington, DC, and at TSA field locations in New York
                        City (NY), Atlantic City (NJ), San Jose (CA), San Francisco (CA), and
                        Phoenix (AZ). We performed our work according to generally accepted
                        government auditing standards.

                        The principal OIG points of contact for this audit are Frank Deffer, Assistant
                        Inspector General for Information Technology Audits, and Richard Harsche,
                        Director of Information Management. Major OIG contributors to the audit are
                        identified in Appendix C.




   Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                   Page 37
Appendix B
Management Comments to the Draft Report




    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                    Page 38

Appendix B
Management Comments to the Draft Report




    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                    Page 39

Appendix B
Management Comments to the Draft Report




    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                    Page 40

Appendix B
Management Comments to the Draft Report




    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration


                                                    Page 41

Appendix C
Major Contributors to This Report




                 Information Management Division
                 Sondra McCauley, Director
                 Kristen Evans, Audit Manager
                 Steve Ressler, Auditor
                 Therese Doucet, Auditor
                 Elizabeth Bakanic, Intern
                 Beverly Dale, Referencer




    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                    Page 42
Appendix D
Report Distribution



                         Department of Homeland Security
                         Secretary
                         Deputy Secretary
                         Chief of Staff
                         Deputy Chief of Staff
                         General Counsel
                         Executive Secretary
                         Director, GAO/OIG Liaison Office
                         DHS Assistant Secretary for Policy
                         DHS Assistant Secretary for Public Affairs
                         DHS Assistant Secretary for Legislative and Intergovernmental Affairs
                         DHS Chief Information Officer
                         DHS Deputy Chief Information Officer
                         Transportation Security Administration Audit Liaison
                         Assistant Secretary, Transportation Security Administration
                         Transportation Security Administration, Assistant Administrator, Operational
                         Process and Technology
                         Transportation Security Administration Deputy Chief Information Officer

                         Office of Management and Budget
                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress
                         Congressional Oversight and Appropriations Committees, as appropriate




    Information Technology Management Needs to Be Strengthened at the Transportation Security Administration

                                                    Page 43
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    E-mail us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
